No. 19-937

 

 

IN THE

Supreme Court of the Anited States

THE CHEROKEE NATION,
Petitioner,
v.
DAVID BERNHARDT, IN HIS OFFICIAL CAPACITY, ET AL.,
Respondents,
AND

UNITED KEETOOWAH BAND OF CHEROKEE INDIANS IN
OKLAHOMA, ET AL.,

Intervenors / Respondents.

On Petition for a Writ of Certiorari
to the United States Court of
Appeals for the Tenth Circuit

BRIEF IN OPPOSITION TO PETITION FOR A
WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

1,990 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 1, 2020.

Colin Casey teen

Wilson-Epes Printing Co., Inc.
